1200 New Hampshire Ave. NW, Suite 700
Washington, DC 20036
202-955-0095 /
@BecketLaw
www.becketlaw.org

February 21, 2020
By Hand Delivery and Electronic Filing
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543-0001
Re:

Little Sisters of the Poor Saints Peter & Paul Home v. Pennsylvania, et al, No.
19-431
Trump et al. v. Pennsylvania et al., No. 19-454

Dear Mr. Harris:
On behalf of petitioners in No. 19-431, I hereby consent to the filing of any briefs
amici curiae in support of either party or of neither party, filed within the time
allowed by this Court’s rules.
Sincerely,

Mark L. Rienzi
mrienzi@becketlaw.org
Counsel for Petitioner Little Sisters
cc: Counsel of Record

